UNIVERSITY BANK - VISA CREDIT CARD INTEREST RATES AND INTEREST CHARGES

6.25 % - 14.25 %
Annual Percentage Rate(APR) for Purchases

The interest rate will vary between 6.25% - 14.25% based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

6.25% - 14.25%
APR for Balance Transfers

The interest rate will vary between 6.25%-14.25% based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

6.25% - 14.25%
APR for Cash Advances

The interest rate will vary between 6.25% - 14.25% based on your creditworthiness.
This APR will vary with the market based on the Prime Rate.

25.00%
Penalty APR and When It Applies

This APR may be applied to your account if you:
1) Make a late payment;
2) Go over your credit limit; or
3) Make a payment that is returned.
How Long Will the Penalty APR Apply? If your APRs are increased for any of these reasons, the Penalty
APR will apply until you make six consecutive minimum payments when due.

How to Avoid Paying Interest on Purchases

Your due date is at least 25 days after close of each billing cycle. We will not charge you interest on
purchases if you pay the entire balance by the due date each month.

Minimum Interest Charge

If you are charged periodic interest, the charge will be no less than $1.00.

For Credit Card Tips from the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of
the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

FEES
Annual Fees
Transaction Fees
 Balance Transfer
 Cash Advance
 Foreign Fees
Penalty Fees
 Late Payment
 Over-the-Credit-Line
 Returned Payment
Other Fees
 Replacement Card

$0.00
Either $5.00 or 4.00% of the amount of each transfer, whichever is greater.
Either $0.00 or 0.00% of the amount of each transfer, whichever is greater.
3.00% of each transaction in U.S. Dollars.
Up to $25.00
Up to $25.00
Up to $25.00
$10.00/card



Additional Card

$10.00/card (Two cards are provided without charge)




Duplicate Statement or Document Copy
Expedited Delivery

$5.00/statement or document copy
Up to $50.00

How We Will Calculate Your Balance: We use a method called “average daily balance”. See your account agreement for further information regarding how we
calculate your balance.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
How We Will Calculate Your Variable APRs: We calculate variable APRs by adding a margin to the highest U.S. Prime Rate published in the Money Rates section of
The Wall Street Journal two business days (not weekends or federal holidays) before the closing date shown on your billing statement. The APR may increase or
decrease each month if the Prime Rate changes. Any new rate will be applied as of the first day of your billing cycle during which the Prime Rate has changed. If the
APR increases, you will pay a higher interest charge and may pay a higher minimum payment. The Prime Rate is simply a reference index and is not the lowest interest
rate available. If The Wall Street Journal stops publishing the Prime Rate, we will select a similar reference rate.
Prime Rate: Variable APRs are based on the Wall Street Journal Prime Rate of 3.25% as of June 1, 2021.
Contact for Updates: The information about the costs of the credit card described in this application is current as of June 1, 2021. This information may have
changed after that date. To find out what may have changed, please call us at 1-800-368-7987 or email us at branch@university-bank.com.

University Bank - Visa Credit Card
Agreement
1. Agreement. These regulations govern the possession and use of
credit cards (“card”) issued by University Bank (“Issuer”). Each person
who applies for a credit card and in whose name the card is issued
(“Holder”) consents and agrees to these regulations and to the terms
contained on the credit cards, sales drafts, credit adjustment memos
and cash advance drafts, signed by or given to Holder or any
authorized user of Holder’s cards. When credit cards are issued upon
the application of two or more persons, all such persons shall be
jointly and severally liable as Holders. The provisions of these
regulations, as amended from time to time, govern Holder’s
obligations, notwithstanding any additional or different terms
contained in sales drafts, credit adjustment memos, cash advance
drafts or other forms signed by or given to Holder or any user of
Holder ‘s cards to evidence a credit card transaction. Holder
authorizes an investigation of Holder’s credit standing prior to the
issuance of a credit card to Holder and at any time thereafter and
authorizes disclosure of information to third parties relating to
Holder’s credit standing. These regulations apply to all credit cards
issued to Holder or to others on Holder’s authorization and to any
user of Holder’s cards.
2. Membership Fees. As a condition of participation in the issuer’s
credit plan and the issuance of a card, Holder agrees that there is no
annual membership fee for VISA consumer and business accounts.
The membership fee described above entitles the Holder to two VISA
cards. Holder agrees to pay a fee for each additional card requested.
Please see Rates and Fees Disclosure Table for fees charged.
3. Use of Card. Credit for purchases from a merchant or a cash
advance from a participating financial institution may be obtained by
Holder or an authorized user of Holder’s card presenting one of
Holder’s cards to the merchant or participating financial institution
and, if requested, by providing the proper identifying information and
signing the appropriate drafts. Failure to sign a draft does not relieve
the Holder of liability for purchases made or cash received. The use of
this card for illegal transactions is prohibited. The card may also be
used to obtain cash advances from certain automated equipment
provided it is used with Holder’s correct Personal Identification
Number (“PIN”) issued to Holder. Holder may make only two cash
advance withdrawals totaling not more than $200 each day from
compatible ATM terminals. Terminals or terminal operators may have
other limits on the amounts or frequency of cash withdrawals. Holder
will not be liable for the unauthorized use of the card or PIN issued to
Holder which occurs before issuer receives notification orally or in
writing of loss, theft or possible unauthorized use of a card or PIN.
Lost or stolen cards or PINS should be reported immediately to Issuer
by notifying CUSTOMER SERVICE, P.O. Box 30495, Tampa, FL 33630,
and Telephone (866) 839-3485.
4. Use of University Bank Card Checks. Credit obtained by use of a
Balance Transfer Check shall be treated as a credit purchase. Credit
obtained by use of Classic or Premier Check shall be treated as a cash
advance.
5. Credit Line. Holder will from time to time be informed of the
amount of the approved credit line established for Holder, and Holder
covenants not to make credit purchases or borrowings in excess of
that amount. Holder is liable for all purchases and borrowings made
with Holder’s cards by Holder or by anyone authorized to use Holder’s
cards.
6. Payment. Holder will be furnished a monthly statement for each
billing period at the end of which there is an undisputed debit or
credit balance of $1.00 or more. Holder shall pay within 25 days after

each statement Closing Date either (a) the full amount billed (“New
Balance”) or, at Holder’s option, (b) a minimum Payment of $25 or 3%
of the New Balance, whichever is greater. Payments may be mailed
to VISA, P.O. Box 4512, Carol Stream, IL 60197-4512. Payments may
be made, in person, at a University Bank office. Payments received
after 5:00 p.m. on any processing day or at any time on any nonprocessing day will be considered as payments made on the
following processing day. All payments by Holder will be applied first
to payment of Interest Charges in the order of their entry to the
account, second to additional fees and credit insurance charges, if
any, in the order of their entry to the account, third to previously
billed cash advances, purchases and other similar charges in the order
of their entry to the account, and then to current cash advances,
purchases and other similar charges in the order of their entry to the
account.
7. Interest Charges. Holder shall pay Interest Charges as shown on
Holder’s monthly statements, for each billing period in which there is
a cash advance or the Previous Balance is not paid in full prior to the
Closing Date of the billing statement. For cash advance fees, please
see the Rates and Fees Disclosure Table. We figure the Interest
Charges on your account by applying the monthly Periodic Rate to the
entire “Balance Subject to Interest Rate.” The additional charge for
cash advances shall not apply to any cash advance obtained under a
separate credit agreement with Holder and written in connection
with these regulations. The “Balance Subject to Interest Rate” is the
“average daily balance,” of the account (including current
transaction). To get the “average daily balance,” we take the
beginning balance of the account each day, add any new cash
advances, credit purchases and other charges, and subtract any
payments or credits, unpaid late charges, unpaid membership fees
and unpaid Interest Charges. This gives us the daily balance. Then, we
add up all of the daily balances for the billing cycle and divide the total
by the number of days in the billing cycle. This gives us the “AVERAGE
DAILY BALANCE.” Interest Charges for credit purchases begin on the
date the purchase is posted to the account unless the Previous
Balance shown on the statement is paid in full prior to the Closing
Date of the statement. Credit purchases made during the statement
period and the Previous Balance will be excluded from the calculation
of the “average daily balance” if the Previous Balance shown on the
front of the statement was paid in full prior to the Closing Date of the
statement. The Interest Charges for cash advances begin on the date
the advance is posted to the account. Holder may avoid additional
Interest Charges on an account by paying in full the New Balance
shown on the account’s monthly statement within 25 days after the
Closing Date for that statement.
8. Variable Annual Percentage Rate. The current monthly Periodic
Rate and corresponding ANNUAL PERCENTAGE RATE for new
accounts are disclosed on the accompanying card mailer. These rates
may vary monthly and shall be adjusted on the first day of each billing
period (“Change Date”). The ANNUAL PERCENTAGE RATE on each
Change Date shall equal the highest prime rate published in The Wall
Street Journal “Money Rates” tables on the last date of publication in
the calendar month preceding each Change Date (“Index Rate”), PLUS
a Margin. For more information on current margin(s), please refer to
the Rates and Fees Disclosure Table. The monthly Periodic Rate is
1/12th of the ANNUAL PERCENTAGE RATE. Beginning on the date an
adjustment in the rate is effective and until the next Change Date, the
monthly Periodic Rate then in effect will be applied to the balance in
the account to determine the Interest Charges. An adjustment in the
monthly Periodic Rate and corresponding ANNUAL PERCENTAGE
RATE will apply both to the outstanding balances in the account and
to new cash advances, (including any balance transfers from other
credit card accounts), credit purchases, and other charges. An
increase or decrease in the Index Rate will cause and increase or
decrease in the monthly Periodic Rate and corresponding ANNUAL

PERCENTAGE RATE and may increase the amount and number of
minimum payments. If the Index Rate ceases to be made available,
Issuer may substitute a substantially similar index and margin.
9. How We Will Calculate Your Variable APRs: We calculate variable
APRs by adding a margin to the highest U.S. Prime Rate published in
the Money Rates section of The Wall Street Journal two business days
(not weekends or federal holidays) before the closing date shown on
your billing statement. The APR may increase or decrease each month
if the Prime Rate changes. Any new rate will be applied as of the first
day of your billing cycle during which the Prime Rate has changed. If
the APR increases, you will pay a higher interest charge and may pay
a higher minimum payment. The Prime Rate is simply a reference
index and is not the lowest interest rate available. If The Wall Street
Journal stops publishing the Prime Rate, we will select a similar
reference rate.
10. Additional Fees. For a listing of fees charged in association with
this card, please see the Rates and Fees Disclosure Table
accompanying this Agreement. These charges will not be imposed if
Holder’s request is in connection with or delivery of the documents in
response to an alleged billing error under Regulations E or Z issued by
the Board of Governors of the Federal Reserve System. Fees imposed
will be posted to Holder’s account.
11. Security Interest. All credit advanced to Holder for credit
purchases or cash advances constitutes loans made by Issuer to
Holder in the state of MI. Issuer disclaims as security for loans made
to Holder under these regulations any security interest it may at any
time have in household goods or real property. Except as disclaimed
above, loans made to Holder after the effective date of these
regulations may be secured by collateral given by any Holder to
secure other loans from Issuer.
12. Insurance. If the Holder is eligible and elects to participate in the
group credit life, disability and loss of income insurance program by
signing the appropriate enrollment forms, insurance charges will be
posted to Holder’s account each statement period at the rate
disclosed in the enrollment form based upon the New Balance on the
account (including accrued Interest Charges) for each statement
period. CREDIT LIFE, DISABILITY AND LOSS OF INCOME INSURANCE IS
VOLUNTARY AND IS NOT REQUIRED AS A CONDITION TO HOLDER’S
PARTICIPATION IN THIS CREDIT PLAN.
13. Foreign Transactions. If a Holder’s card is used to effect a
transaction in a foreign currency, the transaction amount will be
converted to U.S. dollars by VISA International, VISA converts
currency to U.S. dollars using either the government mandated
exchange rate or the wholesale exchange rate, in effect one day
before the date of the conversion, as applicable. The exchange rate is
increased by 1% if the conversion is made in connection with a charge
to an account and decreased by 1% if the conversion is made in
connection with a credit to an account. The date of conversion by
VISA may differ from the purchase date and the posting date
identified in the monthly statement for the account. Holder agrees to
pay charges and accept credits for the converted transaction amounts
in accordance with the terms of this paragraph.
14. Disputes. Issuer is not responsible for refusal by any merchant,
financial institution or automated equipment to honor or accept a
card. Except as provided in the Federal Truth-in-Lending laws(as
indicated in the Summary of Billing Rights below), Issuer has no
responsibility for merchandise or services obtained by Holder with a
card and any dispute concerning merchandise or services will be
settled between Holder and the merchant concerned.
15. Default. Holder covenants to observe and comply with these
regulations and covenants not to permit an event of default to occur.
Upon the occurrence of any one or more of the following events of
default: (a) Holder fails to pay at least the Minimum Payment when
due on two occasions within any 12-month period; or (b) Holder dies,
ceases to exist, changes residency to another state, becomes

insolvent or the subject of bankruptcy or insolvency proceedings or
fails to observe any covenant or duty contained in these regulations,
if such event or breach materially impairs Holder’s ability to pay
amounts due; the full amount of Holder’s account for which the
default occurred (including unpaid Interest Charges) shall, at Issuer’s
option become immediately due and payable if Holder does not cure
the default within 15 calendar days after notice is mailed to the
address of Holder, or given as otherwise provided by law. Issuer has
this right, without notice and opportunity to cure; if the default is the
Holder’s third default within 12 months and the Holder is notified of
the prior two defaults and the Holder cured those defaults. 16.
Termination. Holder’s consent to these regulations may be
terminated at any time by surrendering the cards issued to Holder or
at Holder’s written request, but such termination shall not affect
Holder’s obligations as to any balances or charges outstanding at the
time of termination. Termination by any Holder shall be binding on
each person in whose name the card is issued. If Holder’s spouse
terminates this credit plan, the full amount of Holder’s account
(including unpaid Interest Charges) may be declared immediately due
and payable. Issuer may terminate Holder’s privilege to use the cards
if Holder moves out of the service area of Issuer, as defined by Issuer
from time to time. Unless sooner terminated, the privilege to use the
cards shall expire on the date shown on the cards. At any time,
without liability to Holder and without affecting Holder’s liability for
credit previously extended, Holder’s privilege to use the cards may be
revoked or limited to the extent not prohibited by law. The cards are
and shall remain the property of Issuer and Holder agrees to
surrender them to Issuer upon demand.
17. Amendments. Issuer may amend these regulations from time to
time by sending Holder advance written notice not less than 90 days
prior to the effective date for any change that is either adverse to
Holder’s outstanding balance or increases certain fees, as required by
the MI Consumer Act from time to time, or not less than 15 days prior
to the effective date for other changes, or as may otherwise be
required or permitted by law. To the extent that Issuer indicates in
the notice and that the law permits, amendments will apply to
Holder’s existing account balance as well as to future transactions.
Notices are deemed given when mailed by Issuer to any Holder to the
current address for mailing monthly statements. Invalidity of any
provision of these regulations shall not affect the validity of any other
provisions unless otherwise provided by the MI Consumer Act.
18. Governing Law. Holder agrees to be governed by the MI
Consumer Act with respect to all aspects of the transactions arising
under these regulations. All statutory references are to the statutes
as they may be renumbered or amended from time to time.

Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address shown on your monthly billing statement.
In your letter, give us the following information:




Account Information:
Your name and account number.
Dollar Amount:
The dollar amount of the suspected error.
Description of Problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it
is a mistake.

You must contact us:



Within 60 days after the error appeared on your statement.
At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is
wrong.

You must notify us of any potential errors in writing (or electronically). You may call us, but if you do, we are not required to investigate
any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1.
2.

Within 30 days after receiving your letter, we must tell you that we received your letter. We will also tell you if we have already
corrected the error.
Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.

While we investigate whether or not there has been an error:





We cannot try to collect the amount in question, or report you as delinquent on that amount.
The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:



If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date payment is due. We may then report you as delinquent if you
do not pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay.
If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let those organizations know when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount in question, even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct
the problem with the merchant, you may have the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1.

2.
3.

The purchase must have been made in your home state or within 100 miles of your current mailing address, and the purchase price
must have been more than $50.
(Note: Neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own the company
that sold you the goods or services.)
You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses
your credit card account do not qualify.
You must not yet have fully paid for the purchase.

If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing (or electronically) at the address
shown on your monthly billing statement.
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

